Supreme Court, U.S.
FILED

WAIVER

FEB 1 1 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

20-1047

Alabama

V.

Alabama State Conference of the NAACP
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:

Ei Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

0 I am a member of the Bar of the Supreme Court of the United States.
111 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.

/s/ Keith J. Harrison
February 11, 2021
Date.
Keith J. Harrison
(Type or print) Name
Signature

111 Mr.
Firm

0 Mrs.

0 Miss

Crowell & Moring LLP

Address

1001 Pennsylvania Avenue, NW

City & State
Phone

D Ms.

Washington, DC

(202) 624-2560

Zip
Email

20004-2595

kharrison@crowell.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: edmund.lacour@alabamaag.gov

RECEIVED
FEB 17 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

